          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           Audit of GSA’s
           Implementation of the
           Federal Data Center
           Consolidation Initiative
           Report Number A120132/O/F/F12006
           September 28, 2012




A120132/O/F/F12006
 DATE:            September 28, 2012
 TO:              Casey Coleman
                  Chief Information Officer (I)

 FROM :           Donna Peterson-Jones       Ct)~ f~r
                  Audit Manager, Finance and Information
                  Technology Audit Office (JA-F)
 SUBJECT:         Audit of GSA's Implementation of the
                  Federal Data Center Consolidation Initiative
                  Report Number A 120132/0/F/F12006

This report presents the results of our audit of the General Services Administration 's
(GSA) implementation of the Federal Data Center Consolidation (DCC) Initiative.

The audit objectives were (1) to determine if GSA's DCC Plan addresses the
requirements of the Federal DCC Initiative and (2) to evaluate GSA's current progress
implementing its DCC Plan and stated goals.

GSA has addressed the initial requirements of the Federal DCC Initiative with the
submission of its DCC Plan to the Office of Management and Budget (OMB) . The
September 2011 DCC Plan stated that in calendar year 2011 , three data centers would
be consolidated through server consolidation/decomm ission . While GSA did reduce the
physical footprint of three data centers they planned to consolidate in 2011 , the agency
is restarting the DCC process to adequately address changes to the scope of the
Federal DCC Initiative.

See Appendix A - Purpose , Scope , and Methodology for additional details.

On behalf of the audit team , I would like to thank you and your staff for your assistance
during this audit. Since this report does not contain findings or recommendations , a
written reply is not required nor is the report subject to the audit resolution process.

If you have any questions regarding this report, please contact me or the Auditor-in-
Charge at the following :


Donna Peterson-Jones     Audit Manager        Donna.Peterson@qsaiq .gov        202.357.3620
Dominique Lipscomb       Auditor-in-Charge    Dominique.Lipscomb@qsaiq .gov    202.357.3620



A120132/0!F/F12006                       1
Background

In February 2010, OMB’s Federal Chief Information Officer (CIO) launched the Federal
DCC Initiative with the aim of decreasing redundant, costly, inefficient, and
unsustainable information technology (IT) infrastructure throughout the Federal
Government. The focus of the Federal DCC Initiative is to:
    • Promote the use of Green IT by reducing the overall energy and real estate
      footprint of government data centers;
    • Reduce the cost of data center hardware, software, and operations;
    • Increase the overall IT security posture of the Government; and
    • Shift IT investments to more efficient computing platforms and technologies.

Initial guidance from OMB’s Federal CIO called for agencies to inventory current data
center assets, develop consolidation plans throughout fiscal year 2010, integrate those
plans into agency fiscal year 2012 budgets, and consider how those plans would be
included in future budget submissions. However, this initial guidance did not include
specific details as to what constituted a data center for the purposes of the Federal DCC
Initiative.

In October 2010, OMB’s Federal CIO updated the Federal DCC Initiative guidance by
instructing agencies to consider any room greater than 500 square feet and devoted to
data processing as a data center. However, the scope of the Federal DCC Initiative
was subsequently expanded to include the definition of a data center as any space used
for the storage, management, and dissemination of data and information. Although
OMB’s Federal CIO announced the change to the public and federal agencies in
October 2011, an official revision to the prior guidance was not issued to federal
agencies until March 19, 2012. While the change of scope was expected to affect the
progress agencies were making, the benefit of a more efficient Federal Government
was considered paramount.

Results

GSA has addressed the initial requirements of the Federal DCC Initiative with the
submission of its DCC Plan. 1 In its September 2011 DCC Plan based on the October
2010 guidance, GSA identified 15 regional data centers and 6 externally-hosted sites in
its asset inventory. According to this DCC Plan, between calendar years 2011 and
2015, GSA would consolidate most of its data processing within three primary data
centers. By reducing the physical footprint of the other data centers, GSA could then
remove these centers from its inventory.

GSA has taken action to implement its plan and reduce the physical footprint of three
data centers. GSA worked on implementing its 2011 DCC Plan at the data centers
1
 All federal agencies submit their DCC Initiative deliverables to the GSA Federal DCC Initiative Program
Management Office (PMO) for preliminary review. If the GSA Federal DCC Initiative PMO determines the
deliverable is acceptable, it is then forwarded to OMB for final review.


A120132/O/F/F12006                             2
located in regions 1, 8, and 10 during calendar year 2011. In these locations, GSA
reduced the physical foot print of the data centers to less than 500 square feet, installed
advanced energy meters, and decreased the number of servers in its inventory.

However, GSA’s 2011 DCC Plan does not sufficiently address the updated Federal
DCC Initiative implementation guidance issued by OMB’s Federal CIO in March 2012.
In particular, the new guidance changed the definition of what should be classified as a
data center and as a result, GSA is re-evaluating its operations and developing a new
plan on how it will address and implement the Federal DCC Initiative.

In developing its new DCC Plan, GSA will be revising its baseline inventory and
establishing new goals and milestones that will address the expanded scope of the
Initiative. GSA has also taken steps to centralize the coordination of implementing the
Federal DCC Initiative across its services and regions and plans to address the
shortfalls (e.g., incomplete asset inventory) noted by two Government Accountability
Office (GAO) reports 2 in its revised DCC Plan. GSA’s revised DCC Plan is due to OMB
by September 30, 2012.

Conclusion

Due to the changes that will be made to GSA’s DCC Plan as a result of the updated
Federal DCC Initiative guidance, no recommendations are being made at this time. We
may choose to review GSA’s revised DCC Plan after it is submitted to OMB to evaluate
how the baseline inventory and strategies have changed and determine if GSA is
addressing the new Federal DCC Initiative requirements.




2
  GAO-11-565 Data Center Consolidation: Agencies Need to Complete Inventories and Plans to Achieve
Expected Savings dated July 2011 and GAO-12-742 Data Center Consolidation: Agencies Making
Progress on Efforts, but Inventories and Plans Need to Be Completed dated July 2012. Both reports
indicated GSA was missing, or had not completed, key elements in its plan.



A120132/O/F/F12006                          3
Appendix A – Purpose, Scope, and Methodology
Purpose

This audit was included in the GSA Office of Inspector General (OIG) annual audit plan
due to its correlation to GSA’s Management Challenges in the areas of Information
Technology and Greening Initiative - Sustainable Environmental Stewardship.

Scope

We reviewed GSA’s Federal Data Center Consolidation Initiative implementation goals
for calendar year 2011.

Methodology

To accomplish our objectives, we:

   •   Reviewed background information on the Federal DCC Initiative including
       executive orders, presidential directives and memorandums, congressional
       legislation, OMB and GSA guidance, GAO and other agency OIG reports, and
       private industry white papers/best practices;
   •   Met with GSA’s Office of the CIO agency officials responsible for coordinating
       GSA's DCC effort;
   •   Obtained GSA's 2011 Data Center Consolidation Plan & Progress Report; and
   •   Obtained and reviewed supporting documentation on GSA’s DCC effort.

We conducted the audit between April 2012 and August 2012 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Internal Controls

We limited our assessment of internal controls to those related to GSA’s process to
consolidate the individual data centers. Furthermore, we obtained the Lessons Learned
document, which is periodically updated, and the new processes being developed as
the agency continues to implement the Federal DCC Initiative. We determined the
controls to be effective and made no recommendations.




A120132/O/F/F12006                   A -1
Appendix B – Report Distribution
Chief Information Office (I)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison, Office of the Chief Information Officer (I)

Assistant IG for Auditing (JA)

Deputy Assistant IG for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A120132/O/F/F12006                       B -1
